                                                     U.S. OFFICE OF PERSONNEL MANAGEMENT
                                                           OFFICE OF THE INSPECTOR GENERAL
                                                                            OFFICE OF AUDITS




                                   Final Audit Report
Subject:

         Audit of the Federal Employees Health Benefits
          Program Operations at Aetna Open Access –
                     Washington, D.C. Area



                                           Report No. 1C-JN-00-12-070

                                           Date: February 6, 2013




                                                      -- CAUTION --
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                                                     AUDIT REPORT



                                   Federal Employees Health Benefits Program
                                Community-Rated Health Maintenance Organization
                                   Aetna Open Access – Washington, D.C. Area
                                    Contract Number CS 1766 - Plan Code JN
                                             Blue Bell, Pennsylvania



                 Report No. 1C-JN-00-12-070                                           Date: February 6,2013




                                                                                      Michael R. Esser
                                                                                      Assistant Inspector General
                                                                                        for Audits



                                                      -- CAUTION --
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                               EXECUTIVE SUMMARY




                      Federal Employees Health Benefits Program
                   Community-Rated Health Maintenance Organization
                      Aetna Open Access – Washington, D.C. Area
                       Contract Number CS 1766 - Plan Code JN
                                Blue Bell, Pennsylvania


         Report No. 1C-JN-00-12-070                     Date: February 6,2013


The Office of the Inspector General performed an audit of the Federal Employees Health
Benefits Program (FEHBP) operations at Aetna Open Access – Washington, D.C. Area (Plan).
The audit covered contract years 2009 through 2012, and was conducted at the Plan’s office in
Blue Bell, Pennsylvania. We found that the FEHBP rates were developed in accordance with
applicable laws, regulations, and the Office of Personnel Management’s rating instructions for
the years audited.




                                               i
                                                    CONTENTS

                                                                                                                   Page

      EXECUTIVE SUMMARY .............................................................................................. i

  I. INTRODUCTION AND BACKGROUND..................................................................... 1

II. OBJECTIVES, SCOPE, AND METHODOLOGY ......................................................... 3

III. RESULTS OF THE AUDIT ............................................................................................ 5

IV. MAJOR CONTRIBUTORS TO THIS REPORT ............................................................ 6
                     I. INTRODUCTION AND BACKGROUND
Introduction

We completed an audit of the Federal Employees Health Benefits Program (FEHBP) operations
at Aetna Open Access – Washington, D.C. Area (Plan). The audit covered contract years 2009
through 2012, and was conducted at the Plan’s office in Blue Bell, Pennsylvania. The audit was
conducted pursuant to the provisions of Contract CS 1766; 5 U.S.C. Chapter 89; and 5 Code of
Federal Regulations (CFR) Chapter 1, Part 890. The audit was performed by the Office of
Personnel Management’s (OPM) Office of the Inspector General (OIG), as established by the
Inspector General Act of 1978, as amended.

Background

The FEHBP was established by the Federal Employees Health Benefits Act (Public Law 86-
382), enacted on September 28, 1959. The FEHBP was created to provide health insurance
benefits for federal employees, annuitants, and dependents. The FEHBP is administered by
OPM’s Healthcare and Insurance Office. The provisions of the Federal Employees Health
Benefits Act are implemented by OPM through regulations codified in Chapter 1, Part 890 of
Title 5, CFR. Health insurance coverage is provided through contracts with health insurance
carriers who provide service benefits, indemnity benefits, or comprehensive medical services.

Community-rated carriers participating in the FEHBP are subject to various federal, state and
local laws, regulations, and ordinances. While most carriers are subject to state jurisdiction,
many are further subject to the Health Maintenance Organization Act of 1973 (Public Law 93-
222), as amended (i.e., many community-rated carriers are federally qualified). In addition,
participation in the FEHBP subjects the carriers to the Federal Employees Health Benefits Act
and implementing regulations promulgated by OPM.

The FEHBP should pay a market price                             FEHBP Contracts/Members
                                                                       March 31
rate, which is defined as the best rate
offered to either of the two groups closest         120,000
in size to the FEHBP. In contracting with
community-rated carriers, OPM relies on             100,000

carrier compliance with appropriate laws             80,000
and regulations and, consequently, does
not negotiate base rates. OPM negotiations           60,000

relate primarily to the level of coverage            40,000
and other unique features of the FEHBP.
                                                     20,000

The chart to the right shows the number of                0
FEHBP contracts and members reported by                           2009     2010      2011      2012
                                                    Contracts    50,881   49,758    49,254    48,320
the Plan as of March 31 for each contract           Members     109,793   106,757   109,014   108,722
year audited.



                                                1
The Plan has participated in the FEHBP since 1982 and provides health benefits to FEHBP
members in all of Washington, D.C.; Northern, Central, and Southern Maryland; and Northern,
Central, and Richmond, Virginia areas. The last audit of the Plan conducted by our office was in
2009, and covered contract years 2006 through 2008. The prior audit did not identify any
deficiencies.

The preliminary results of this audit were discussed with Plan officials at an exit conference and
in subsequent correspondence. Since the audit concluded that the Plan’s rating of the FEHBP
was in accordance with applicable laws, regulations, and instructions, a draft report was not
issued.




                                                 2
                     II. OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

The primary objectives of the audit were to verify that the Plan offered market price rates to the
FEHBP and to verify that the loadings to the FEHBP rates were reasonable and equitable.
Additional tests were performed to determine whether the Plan was in compliance with the
provisions of the laws and regulations governing the FEHBP.

Scope
                                                                               FEHBP Premiums Paid to Plan

We conducted this performance audit in
accordance with generally accepted government                                 $600
auditing standards. Those standards require that                              $500




                                                                 Millions
we plan and perform the audit to obtain                                       $400
sufficient, appropriate evidence to provide a                                 $300
reasonable basis for our findings and conclusions                             $200
based on our audit objectives. We believe that                                $100
the evidence obtained provides a reasonable                                     $0
basis for our findings and conclusions based on                                        2009      2010         2011
                                                                            Revenue   $463.8    $501.5       $554.2
our audit objectives.

This performance audit covered contract years
2009 through 2012. For contract years 2009 through 2011, the FEHBP paid approximately $1.5
billion in premiums to the Plan, as shown on the chart above 1.

OIG audits of community-rated carriers are designed to test carrier compliance with the FEHBP
contract, applicable laws and regulations, and OPM rate instructions. These audits are also
designed to provide reasonable assurance of detecting errors, irregularities, and illegal acts.

We obtained an understanding of the Plan’s internal control structure, but we did not use this
information to determine the nature, timing, and extent of our audit procedures. However, the
audit included such tests of the Plan’s rating system and such other auditing procedures
considered necessary under the circumstances. Our review of internal controls was limited to the
procedures the Plan has in place to ensure that:

           • The appropriate similarly sized subscriber groups (SSSG) were selected;

           • the rates charged to the FEHBP were the market price rates (i.e., equivalent to the best
             rate offered to the SSSGs); and

           • the loadings to the FEHBP rates were reasonable and equitable.

In conducting the audit, we relied to varying degrees on computer-generated billing, enrollment,
and claims data provided by the Plan. We did not verify the reliability of the data generated by

1
    At the time of the report, the 2012 Subscription Income Report was not available.
                                                           3
the various information systems involved. However, nothing came to our attention during our
audit testing utilizing the computer-generated data to cause us to doubt its reliability. We believe
that the available data was sufficient to achieve our audit objectives. Except as noted above, the
audit was conducted in accordance with generally accepted government auditing standards,
issued by the Comptroller General of the United States.

The audit fieldwork was conducted at the Plan’s office in Blue Bell, Pennsylvania, during
September 2012. Additional audit work was completed at our offices located in Cranberry
Township, Pennsylvania, and Jacksonville, Florida.

Methodology

We examined the Plan’s Federal rate submissions and related documents as a basis for validating
the market price rates. In addition, we examined the rate development documentation and
billings to other groups, such as the SSSGs, to determine if the market price was actually charged
to the FEHBP. Finally, we used the contract, the Federal Employees Health Benefits Acquisition
Regulations, and OPM’s Rate Instructions to Community-Rated Carriers to determine the
propriety of the FEHBP premiums and the reasonableness and acceptability of the Plan’s rating
system.

To gain an understanding of the internal controls in the Plan’s rating system, we reviewed the
Plan’s rating system policies and procedures, interviewed appropriate Plan officials, and
performed other auditing procedures necessary to meet our audit objectives.




                                                 4
                           III. RESULTS OF THE AUDIT
Our audit showed that the Plan’s rating of the FEHBP was in accordance with applicable laws,
regulations, and OPM’s rating instructions to carriers for contract years 2009 through 2012.
Consequently, the audit did not identify any questioned costs and no corrective action is
necessary.




                                              5
            IV. MAJOR CONTRIBUTORS TO THIS REPORT

Community-Rated Audits Group

                    , Auditor-in-Charge

                 , Auditor

                , Auditor

                    , Auditor



                  ., Chief

                 , Senior Team Leader




                                          6
